                                                   Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of the Report              Date:    September 2, 2005
           on Controls over the Delphi Financial
           Management System, DOT
           QC-2005-075
  From:    Theodore P. Alves                                      Reply to
                                                                  Attn. of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Phyllis F. Scheinberg
           Assistant Secretary for Budget and Programs and Chief Financial Officer

           This report summarizes the results of the review of system security controls over
           the Department of Transportation (DOT) Enterprise Service Center’s (service
           center) Delphi Financial Management System. The Delphi Financial Management
           System performs accounting and financial management functions for DOT and
           other Federal agencies. It is maintained by Federal Aviation Administration
           employees at the Mike Monroney Aeronautical Center in Oklahoma City,
           Oklahoma, under the direction of the departmental Chief Financial Officer.

           The service center is one of four Centers of Excellence designated by the Office of
           Management and Budget (OMB) to provide financial management information
           system services to other Federal agencies. To date, the service center supports one
           other Federal agency, the National Endowment for the Arts. OMB requires
           Centers of Excellence to provide Federal agencies with an independent audit
           report in accordance with the American Institute of Certified Public Accountants
           (AICPA) standards.

           Clifton Gunderson, LLP, an independent auditor, of Calverton, Maryland,
           completed the review. The Office of Inspector General (OIG) performed a quality
           control review of Gunderson’s audit work to ensure that it complied with
           applicable auditing standards Generally Accepted Government Auditing Standards
           and the AICPA’s Statement on Auditing Standards (SAS) 70. In our opinion,
           Gunderson’s audit work complied with applicable standards.
The Gunderson audit report concluded that management’s description of controls
for the Delphi Financial Management System presents fairly, in all material
respects, the controls that had been placed in operation as of May 31, 2005. In
addition, Gunderson concluded that controls, as described, are suitably designed to
provide reasonable assurance that 8 of the 10 specified control objectives would be
achieved, if these controls were complied satisfactorily. Gunderson’s testing
found that controls were operating effectively to provide reasonable assurance that
7 of the 10 control objectives were achieved during the period from October 1,
2004 to May 31, 2005.

We agree with Gunderson that strengthening the design and operational
effectiveness in these control objective areas will further enhance Delphi Financial
Management System operations. However, the service center and DOT
Headquarters management deserve credit for making a concerted effort to enhance
security and controls over Delphi system operations, as recommended in OIG’s
September 2003 report. 1

Specifically, since September 2003, DOT management implemented more
disciplined security administration and oversight of Delphi operations,
strengthened controls over access to the General Ledger module to ensure the
integrity of financial statement compilation in Delphi, and installed an enclosed
area in the computer center to better protect Delphi servers. In addition,
management enhanced controls over changes to Delphi production programs and
tested the contingency plan to ensure continuity of Delphi operations in case of
emergency.

Gunderson reported that controls were not suitably designed or not operating
effectively from October 1, 2004 to May 31, 2005 for the following control
objectives.

    • Security Administration Controls. Gunderson concluded that controls
      described are suitably designed; however, they were not operating
      effectively in several areas. Specifically, the service center did not update
      the security plan to reflect the operating system upgrades in Delphi and
      enhanced security protection of Delphi servers in the computer center;
      security accreditation for three interfacing systems had expired and need to
      be re-certified; the memorandum of understanding was not provided for a
      National Endowment for the Arts interfacing system, as required; and
      management did not provide alternative training measures when the
      security awareness website was not functional.
    • Logical Access Controls. Gunderson concluded that the control used to
      capture incompatible duties/roles for Delphi processing was not suitably

1
    Report Number FI-2003-094, “Report on Computer Security of Delphi Financial Management System,”
    September 30, 2003. OIG reports can be found on our website: www.oig.dot.gov.

                                                                                                 2
       designed because it is a detective control rather than a preventive control.
       Gunderson also concluded that described controls were not operating
       effectively in the areas of separating incompatible duties and restricting
       access to the operating system software on the Delphi computer server.
    • Physical Access Controls. Gunderson concluded that the control used to
      grant access to the computer center, which houses Delphi and other
      computer systems, was not suitably designed because it does not ensure that
      access is granted in accordance with an individual’s job
      function/responsibilities. Gunderson also concluded that described controls
      were not operating effectively because an excessive number of people were
      granted access to the computer center, and management did not always
      specify justification for granting individuals’ access to the computer center
      on the request form.

Gunderson made 12 recommendations to improve controls and submitted the
recommendations to DOT management under separate cover from its report. 2 We
agree that implementing these recommendations will further enhance controls over
Delphi Financial Management System operations and have included these
recommendations in this report (see Exhibit A). In an August 25, 2005, response
to OIG, the DOT Deputy Chief Financial Officer concurred with the
recommendations and committed to implementing corrective actions (see
Appendix I).

In accordance with DOT Order 8000.1C, the corrective actions taken in response
to Gunderson’s recommendations are subject to follow-up. Gunderson is
performing additional testing and will prepare a follow-up management letter to
OIG by September 30, 2005, reporting whether the control environment has
significantly changed between June 1 and September 30, 2005. After receiving
Gunderson’s follow-up letter, we will decide whether additional support, including
target completion dates, is needed for the corrective actions.

We appreciate the courtesies and cooperation of the Enterprise Service Center, the
Office of the Secretary of Transportation, and Clifton Gunderson representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1992, or Rebecca Leng, Deputy Assistant Inspector General for
Information Technology and Computer Security, at (202) 366-1488.

Attachment

cc: Chief Information Officer, DOT
    Federal Aviation Administrator



2
    The independent auditor’s report will be available upon request.

                                                                                      3
EXHIBIT A. CLIFTON GUNDERSON,
INDEPENDENT AUDITOR, RECOMMENDATIONS

DOT management should implement the following actions to enhance Delphi
security administration controls.

     1. Ensure all systems that connect to the Delphi are certified and
        accredited and have established interconnection agreements.

     2. Update the computer center (SMF) Security Plan to reflect changes in
        the facility.

     3. Implement measures to ensure employee awareness training is always
        available.

DOT management should implement the following actions to enhance Delphi
logical access controls.

     4. Accelerate the implementation of “Sox Out of the Box” access control
        software to provide preventive security controls to separate
        incompatible duties and roles for Delphi processing.

     5. Ensure that representatives from the National Endowment for the Arts
        sign a liability waiver for noncompliance with ESC’s recommended
        security parameters on assigning roles and responsibilities to Delphi
        users.

     6. Restrict access to the audit log repository to only those individuals with
        security and review responsibilities.

     7. Review who has access to high “root-level” access to the Delphi
        operating system and formally document the authorization for granting
        access to legitimate users. Provide adequate training on this privileged
        account before granting access.

     8. Reduce the number of users with “root-level” access to the Delphi
        operating system. Deactivate the “root-level” access assigned to one
        terminated employee.

     9. Review the Delphi operating system settings on a periodic basis and
        notify the SMF (Information System Security Officer (ISSO) of all
        discrepancies for immediate action.


                                                                                4
DOT management should implement the following actions to enhance Delphi
physical access controls.

     10. Reduce the number of employees and contractors with access to the
         SMF computer center and complete the transfer of all Delphi servers
         into the caged area.

     11. Require division managers with employees and contractors requiring
         access to the SMF computer center to:
          • Properly document the justification for physical access requests to
            SMF.
          • Review monthly the list of employees and contractors who have
            access to the SMF.
          • Perform a quarterly recertification of authorized user access to the
            facility.

     12. Explore the feasibility of implementing a biometric key card for
         physical access to the SMF computer center that expires every 90 days
         and triggers a need for quarterly recertification.




                                                                              5
           APPENDIX I. MANAGEMENT COMMENTS




           U.S. Department of
                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation

Subject:   Management Response to the Quality Control Review                 Date:    August 25, 2005
           of the Enterprise Service Center’s Delphi Financial
           Management System


  From:    Lawrence I. Neff                                               Reply to
                                                                          Attn. of:   B-2
           Deputy Chief Financial Officer

    To:    Rebecca C. Leng
           Deputy Assistant Inspector General for Information Technology
           and Computer Security

           Thank you for the Enterprise Service Center (ESC) Quality Control Review report of the Delphi
           Financial Management System. We appreciate all the help the Office of Inspector General
           (OIG) staff provided in coordinating Clifton-Gunderson's Statement on Auditing Standards
           (SAS) audit of Delphi.

           We have worked closely with the auditors throughout the SAS-70 review. As issues were raised,
           immediate actions were taken to mitigate risks and to further strengthen Delphi's security
           controls. Corrective actions taken to enhance Delphi security controls in response to this SAS-
           70 review include:

                •    Interconnection agreements for all Delphi interfaces have been completed.
                •    The ESC computer center (SMF) Security Plan has been updated to reflect changes in the
                     facility, such as the OIG-recommended server isolation cage.
                •    Agency-specific Security Awareness training is now available online, with CD-ROM
                     based training being available for sign-out locally. In addition, in-processing procedures
                     have been updated to ensure all new employees receive Security Awareness training
                     within 30 days of starting work.
                •    Per the auditor's recommendation, the National Endowment for the Arts (NEA) submitted
                     and the Delphi System Owner approved a time-limited Incompatible Roles Risk
                     Acceptance, pending the implementation of the SOX Out of the Box software this Fiscal
                     Year.
                •    Individuals with system Root Access privileges have had their access reviewed and their
                     authorization formally documented.          System Administrators receive specialized,
                     supervised training prior to being granted elevated privileges.
                •    We are continuing to reduce the number of individuals with access to the SMF computer
                     center. In addition, all Delphi servers have been relocated to the further restricted locked
                     caged area.


           Appendix 1. Management Comments                                                                     6
APPENDIX I. MANAGEMENT COMMENTS

   •   The SMF computer center's process for authorizing physical access has been
       strengthened to ensure proper justifications for access exist and that access lists are
       recertified quarterly. In the future, as the Department implements the requirements of
       Homeland Security Presidential Directive 12 (HSPD 12), Policy for a Common
       Identification Standard (CIS) for Federal Employees and Contractors, more robust
       physical access measures may be incorporated.

The following additional corrective actions are currently underway:

   •   Two remaining Delphi interfacing systems do not have a current certifications &
       accreditations (C&A). One system, owned by B-30, is scheduled to sunset in the near
       future; therefore, the Delphi System Owner has accepted the risk of this system not being
       recertified. The other system's recertification is presently underway, with a scheduled
       completion date of September 30, 2005.

   •   The SOX Out of the Box application is on schedule to be implemented in the Delphi
       Production environment by the end of August. In testing, SOX has been successful at
       masking SSN numbers and in proactively enforcing the Delphi Incompatibility Matrix at
       the transaction level.

   •   Actions to restrict access to the Operating System Audit Log Repository are underway
       and are on schedule to be completed during August.

   •   By August 31, System Administrator Root Access on the Delphi production server will
       be further reduced by two individuals. Written approval from the DOT Deputy Chief
       Financial Officer (DFCO) will be required if these privileges should ever need to be
       reinstated. In addition, we are continuing to investigate the use of system utilities that
       could allow Administrators to maintain the system without using Root privileges.

Attached is a more detailed action plan that outlines specific actions that have been and are being
taken to strengthen each security control discussed in the SAS-70 report.

We look forward to continuing to work with your staff to strengthen the design and
implementation of Delphi security controls. As an Office of Management and Budget (OMB)
designated Center of Excellence, we are strongly committed to ensuring the ESC’s Delphi
Financial Management System meets or exceeds all security requirements. Thank you for your
continuing support and assistance in this effort.

Attachment

cc:
Dan Matthews, Darren Ash, Joanne Choi, Arvid Knutsen,
Lindy Ritz, Dick Rodine, Joanne Adam, Bob Stevens,
Cheryl Rogers, Keith Burlison, Mike Myers, Laura Ramoly




Appendix I. Management Comments                                                                  7
